   April 8, 2003




Information Technology
Management

Transition From the Automatic
Digital Network to the Defense
Message System
(D-2003-075)




               Department of Defense
           Office of the Inspector General
Quality               Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AUTODIN               Automatic Digital Network
DCID                  Director of Central Intelligence Directive
DISA                  Defense Information Systems Agency
DMS                   Defense Message System
DSA                   Directory System Agent
EAM                   Emergency Action Message
FCD                   Functional Content Document
IC                    Intelligence Community
JITC                  Joint Interoperability Test Command
MAISRC                Major Automated Information System Review Council
MROC                  Multicommand Required Operational Capability
NIPRNET               Non-Secure Internet Protocol Router Network
OASD(C3I)             Office of the Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
SIPRNET               Secret Internet Protocol Router Network
VPN                   Virtual Private Network
         Office of the Inspector General of the Department of Defense
Report No. D-2003-075                                                     April 8, 2003
  (Project No. D2002LA-0109)

             Transition From the Automatic Digital Network to
                        the Defense Message System

                               Executive Summary

Who Should Read This Report and Why? This report should be read by personnel
involved with managing the Defense Message System (DMS), as well as those who
manage the development of information technology systems. This report addresses DMS
user requirements and intelligence community directory security.

Background. The Automatic Digital Network (AUTODIN) was implemented in 1962 to
provide DoD secure and reliable messaging capability. However, after a study conducted
in the late 1980s revealed that AUTODIN was costing in excess of $700 million per year
to operate, a search for a replacement messaging system began. The Defense Information
Systems Agency started developing DMS in 1988 to replace the messaging functions
provided by AUTODIN and other legacy electronic mail systems. In order to acquire the
DMS products and services needed, the Air Force awarded a contract to Loral Federal
Systems Company in 1995. As of September 30, 2002, DoD had expended about
$9 billion in total program costs (FY 1990 through FY 2002) in support of DMS. Those
costs include investment costs of $2.29 billion, operations and support costs of
$0.15 billion, and legacy (AUTODIN) phase-out costs of $6.65 billion. DMS is to be
used by all DoD supporting agencies and users to satisfy organizational messaging needs.
DMS Release 3.0, the final version, was fielded in June 2002 with an April 2003
operational date and should meet all established user requirements except for emergency
action messaging needs and the intelligence community requirements. DoD plans to
cease using AUTODIN and close the DMS Transition Hubs by September 30, 2003.

In January 2002, the House Subcommittee on Military Readiness, Committee on Armed
Services requested that the Inspector General of the Department of Defense provide an
update to the IG DoD Report No. 98-150, “Readiness of the Defense Message System to
Replace the Automatic Digital Network,” June 11, 1998. Specifically, the audit was to
review and evaluate the development, fielding, and cost of DMS.

Results. Although DMS Release 2.2 did not meet all user and security requirements,
DMS Release 3.0 and proposed alternatives to meet intelligence community requirements
should satisfy all Multicommand Required Operational Capability and security
requirements. Although DMS Release 3.0 should satisfy all Multicommand Required
Operational Capability requirements, DMS Release 2.2 did not meet all user
requirements, such as message delivery, non-delivery notices, and directory information,
and was not widely used. Because of inadequate guidance and oversight, DMS
implementation was not on schedule and planned savings of $453 million had not been
realized. However, in order to move forward, DMS Release 3.0 should be allowed to
operate, and given appropriate support, for a reasonable amount of time to determine
whether it can meet user requirements. If DMS does not meet user requirements, then a
survey should be conducted and a working group established to develop a solution to
satisfy user requirements (finding A).

DMS Release 3.0 does not satisfy intelligence community requirements for directory
security. As a result, the intelligence community may not have a secure permanent
messaging system available to meet its requirements by the DMS Transition Hub closure
date of September 30, 2003. Because the Defense Information Systems Agency and the
intelligence community have agreed on a solution to address the directory security
requirements, this report makes no recommendations (finding B).

Management Comments. A draft of this report was issued on March 14, 2003. The
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
did not provide comments and comments from the Director, Joint Staff were received too
late to be considered in preparing the final report. Therefore, we request that the
Assistant Secretary of Defense provide comments by May 8, 2003. If the Director, Joint
Staff does not submit additional comments by May 8, 2003, we will consider the
comments received as the response to the final report.




                                           ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              3

Findings
     A. Defense Message System Status                                    4
     B. Intelligence Community Directory Security                       13

Appendixes
     A. Scope and Methodology                                           19
         Prior Coverage                                                 20
     B. Congressional Request                                           21
     C. DMS Multicommand Required Operational Capability Requirements   22
     D. Report Distribution                                             23
Background
           In January 2002, the Chairman of the House Subcommittee on Military
           Readiness, Committee on Armed Services requested that the Inspector General of
           the Department of Defense provide an update to the IG DoD Report No. 98-150,
           “Readiness of the Defense Message System to Replace the Automatic Digital
           Network,” June 11, 1998 (see Appendix B).

           Automatic Digital Network. AUTODIN was developed as a messaging network
           in the late 1950s with initial implementation in 1962. AUTODIN was to provide
           DoD secure and reliable transmission of organizational messages. A study
           conducted in the late 1980s revealed that AUTODIN was costing in excess of
           $700 million per year to operate. As a result, the Defense Information Systems
           Agency (DISA) started developing DMS in 1988 to replace the messaging
           functions provided by AUTODIN and other legacy electronic mail (e-mail)
           systems. In order to acquire the DMS products and services needed, the Air
           Force awarded a contract to Loral Federal Systems Company1 in 1995. The
           contract had a 2-year base period and six option years, with an estimated value of
           $1.7 billion (total value over the 8-year period). Option Period Six of the contract
           extended the performance period from May 1, 2002, through April 30, 2003.
           DoD planned to cease use of AUTODIN by September 30, 2003. The DMS
           Transition Hubs that allow DoD Components to transmit messages using
           AUTODIN are scheduled for closure on that date.

           Defense Message System. DMS is a messaging mail system based on
           commercial off-the-shelf software that provides a flexible messaging capability.
           DMS was designed to perform multimedia messaging (for example, text and
           graphics) and directory services. Directory services provide a means to locate
           computer systems, files, individuals, and e-mail addresses and to perform other
           lookup requirements. DMS takes advantage of the underlying Defense
           information infrastructure and security services. DMS provides access to
           messaging services for all DoD users worldwide (including deployed tactical
           users) as well as an interface to other U.S. Government agencies, allies, and
           Defense contractors. DMS relies on current and emerging technological
           capabilities to provide secure organization-to-organization and individual
           messaging services. DMS is also intended to have the capability of handling all
           classification levels of information, from Unclassified to Top Secret, including
           classification levels used by the intelligence community (IC).2 Before fielding a
           DMS release, the Joint Interoperability Test Command (JITC) tests it for
           operability. Although DMS Release 3.0 was fielded in June 2002 (with an
           operational date of April 2003), as of November 2002, DMS Release 2.2 was the
           most current version in use. DMS is expected to reach full operational capability
           by FY 2008 through a series of software releases. DMS Release 3.0 is expected
           to satisfy Multicommand Required Operational Capability (MROC) requirements
           (listed in Appendix C).
1
    Loral Federal Systems Company was acquired by Lockheed Martin Corporation in April 1996.
2
    The IC comprises 14 Government agencies and organizations, including the Central Intelligence Agency,
    the Defense Intelligence Agency, the Federal Bureau of Investigation, and the National Security Agency,
    which carry out the intelligence activities of the U.S. Government.



                                                      1
           Roles and Responsibilities. The key players in the implementation of DMS are
           the Office of the Assistant Secretary of Defense (Command, Control,
           Communications, and Intelligence) (OASD[C3I]), the Joint Staff, DISA, and the
           Services.

           OASD(C3I) is the designated milestone decision authority for DMS and is
           responsible for providing programmatic policy and acquisition guidance and
           oversight for DMS. The Joint Staff is responsible for reviewing DMS actions for
           consistency with validated requirements; ensuring adequate coordination with and
           validating requirements from the combatant commands and the Services; and
           providing joint doctrine as required. DISA is responsible for maintaining
           oversight of DMS acquisition; providing overall operational management and
           control of DMS; ensuring Joint Staff-validated requirements are met; and
           coordinating DoD-wide implementation of DMS. The responsibilities of the
           Services include maintaining aggressive program management during the
           implementation of DMS; ensuring that the transition planning and AUTODIN
           phase-out planning3 are up-to-date, executed on schedule, and consistent with
           overall program milestones; providing operational support for the management of
           assigned DMS components in accordance with approved DMS operational policy
           and procedures; and maintaining adequate training in accordance with the DMS
           training plan.

           The Services and the Defense agencies reached a consensus in 1989 to modernize
           DoD messaging by replacing the legacy message systems with DMS. To
           accomplish the modernization of DoD messaging, DISA and the Military
           Departments established DMS program management offices. An agreement
           reached between DISA and the Military Departments stipulated that DISA would
           provide all required infrastructure and software products and that the cost of
           fielding the hardware products would be shared. The Military Departments and
           the Defense agencies would be responsible for DMS implementation throughout
           their respective organizations.

           Messaging Requirements. In 1989, the Joint Staff validated MROC 3-88, which
           outlined the requirements to be met by DMS. In 1994, DISA developed and the
           Joint Staff approved change 1 to the “Required Operational Messaging
           Characteristics,” April 15, 1994, that contained more detailed requirements to be
           met by DMS. In 1997, those requirements were incorporated into MROC 3-88,
           Change 2 (hereafter referred to as MROC). The MROC serves as the
           requirements basis for all DMS projects and components, including the Target
           Architecture and Implementation Strategy, the Concept of Operations, and Allied
           Communication Publication 1234 being developed with the support of the
           Military Communications-Electronics Board.

           DMS comprises the hardware, software, procedures, personnel, and facilities
           required for the electronic delivery of messages between the Services and Defense
           agencies and for interfaces to the messaging systems of allies and Defense
           contractors. OASD(C3I) designated DMS as the messaging system to be used for
3
    AUTODIN phase-out planning is the process or plan of action for closure of the DMS Transition Hubs.
4
    Allied Communication Publication 123, “Common Messaging Strategy and Procedures,” August 15,
    1997, defines the services, protocol, and procedures to support electronic messaging.



                                                     2
           DoD and its supporting agencies, thereby initiating the migration from
           AUTODIN and other legacy message systems to DMS. DISA provided the DMS
           infrastructure and fielded software in January 1998 with DMS Release 1.1. DMS
           Release 2.2 was fielded in April 2001. Each release provided enhanced
           capabilities. DISA fielded DMS Release 3.0 in June 2002 with a scheduled
           operational date of April 2003.

           Acquisition Strategy. The DMS Program was designated as a Major Automated
           Information System Review Council (MAISRC) acquisition category IA5
           program in March 1994. In July 1998, the MAISRC was disestablished and the
           Information Technology Overarching Integrated Product Team assumed
           responsibility for the management oversight of the DMS Program. Milestones set
           by the MAISRC dictated that DMS be acquired using an evolutionary acquisition6
           approach and be implemented progressively, through a series of DMS releases,
           with the transition from AUTODIN to DMS first, followed by the capability to
           provide “unclassified-but-sensitive” messaging and then classified messaging.
           The full range of DMS operational capabilities would be achieved through
           coordinated product releases. Each release is focused on a critical aspect of DMS
           and updates earlier releases that results in enhanced capabilities as part of an
           integrated system. The fielding of each new release was dependent upon the
           successful completion of operational testing by JITC.

           Cost. As of September 30, 2002, DoD had expended about $9 billion in total
           program costs (FY 1990 through FY 2002) in support of DMS. Those costs
           include investment costs of $2.29 billion, operations and support costs of
           $0.15 billion, and legacy (AUTODIN) phase-out costs of $6.65 billion. In 1998,
           DoD had envisioned that DMS would save $453 million by shutting down
           AUTODIN in December 1999. A decrease in original legacy phase-out cost
           estimates and an increase in DMS cost estimates, as well DoD not meeting the
           December 1999 deadline, led to a negative return on investment of $266 million
           over the life of the DMS program (through FY 2013).


Objectives
           Our overall audit objective was to determine whether DMS can replace critical
           AUTODIN messaging capabilities. Specifically, the audit reviewed and
           evaluated the development, fielding, and cost of DMS. We did not evaluate
           management controls because the audit was limited to a review of whether DMS
           as fielded could meet the requirements of users. See Appendix A for a discussion
           of the scope and methodology and for prior coverage related to the overall
           objective.

5
    An acquisition category IA program is a Major Automated Information System designated by
    OASD(C3I) as an automated information system acquisition program. Also, the acquisition program is
    estimated to require program costs in any single year in excess of $25 million, total program costs in
    excess of $100 million, or total life-cycle costs in excess of $300 million in FY 1990 constant dollars.
6
    Evolutionary acquisition is an approach that fields an operationally useful and supportable capability in as
    short as time as possible. It delivers an initial capability with an explicit intent of delivering improved or
    updated capability in the future.



                                                         3
           A. Defense Message System Status
           Although DMS Release 3.0 should satisfy all MROC requirements, DMS
           Release 2.2 did not meet all user requirements and was not widely used
           because the system was fielded incrementally and OASD(C3I) and the
           Joint Staff did not provide adequate guidance and oversight of the DMS
           Program. As a result, DMS may not be able to replace the critical
           AUTODIN emergency action messaging capability by September 30,
           2003, the date DoD plans to cease using AUTODIN and close the DMS
           Transition Hubs. In addition, DMS was not on schedule and planned
           savings of $453 million had not been realized.


DMS Multicommand Required Operational Capability
    According to the DISA DMS program manager, the results of independent
    operational assessments and tests by JITC for DMS Releases 1.0 through 3.0
    indicate that DMS Release 3.0, scheduled to be operational by April 2003, should
    satisfy all MROC requirements. DMS was required to meet requirements in
    12 areas, listed in Appendix C. Although DMS Release 3.0 was fielded in
    June 2002, with an operational date of April 2003, as of November 2002, DMS
    Release 2.2 was the most current version in use. The MROC sets forth DMS
    messaging requirements for DoD.

    DMS Release 2.2 users in operational environments in the European and Pacific
    theaters encountered problems with message delivery, non-delivery notices, and
    the directory while operating DMS Release 2.2. In addition, JITC conducted
    operational assessments or tests of DMS to determine the extent to which each
    DMS release was operationally effective and operationally suitable to support
    DoD organizational messaging requirements. Those assessments or tests revealed
    that DMS Release 2.2 did not meet MROC requirements for
    confidentiality/security, integrity, and availability/reliability. Lastly, DMS did
    not support strategic messaging requirements, specifically emergency action
    messages (EAMs).


DMS Performance
    This section discusses the performance of DMS, including concerns of users in
    the European and Pacific theaters about message delivery, the directory, and
    emergency action messaging in operational environments.

    Message Delivery and Non-Delivery Notices. A JITC operational assessment
    showed that DMS Release 2.2 was unable to provide the capability to trace
    messages from the writer to the reader (message delivery). In addition to DMS
    Release 2.2 not meeting the MROC requirement for message delivery, DMS users
    experienced problems with non-delivery notices.




                                        4
           DMS users experienced a high number of non-delivery notices. The MROC
           states that DMS must deliver messages to intended recipients with a high degree
           of certainty. To measure the performance of DMS, DISA established a threshold
           of 3 percent for non-delivery of messages. DISA monitored message delivery
           performance on a monthly basis and reported that during the month of
           August 2002 DISA and the Services sent out 266,421 messages and received non-
           delivery notices for 18,958 (7 percent) of the messages, more than double the
           DISA-established acceptable rate. The Services encountered non-delivery notice
           rates ranging from 5.5 percent to 11 percent for the period of April through
           July 2002. During that 4-month period the percent of messages not delivered,
           generating a non-delivery notice, increased from 7.9 percent to 8.1 percent for the
           Army, from 6 percent to 9 percent for the Air Force, and from 8.9 percent to
           11 percent for the Marine Corps. Navy non-delivery notices decreased from
           8 percent to 6.1 percent during the same period. Each of the Services experienced
           non-delivery rates above the established 3 percent threshold. The non-delivery
           notices occurred because of expired, incorrect, or invalid addresses; misrouting of
           messages in the DMS backbone;7 or improperly configured DMS components and
           profiles. DMS non-delivery notices did not provide an explanation as to why the
           message did not go through or provide a solution to correct the problem. Non-
           delivery notices required the sender to do additional followup work to ensure that
           the information was received by the intended organization. In addition, message
           originators did not know whether messages reached their intended recipients.

           We conducted panel discussions with groups of DMS users at organizations in the
           European and Pacific theaters. Personnel at those panel discussions provided us
           details of their message delivery problems.

                   Army. Army personnel at panel discussions in the European and Pacific
           theaters stated that they experienced problems with non-delivery notices and
           message delivery. In the European theater, Army users stated that non-delivery
           notices did not clearly explain why the message did not go through, offer
           suggestions for correction, or provide any detailed information about the problem.
           In the Pacific theater, personnel at the U.S. Army Pacific, Command Center,
           stated that the majority of their delivery problems dealt with receiving delivery
           confirmation notices on DMS messages that they had sent but later discovering
           the messages had not reached the intended recipients.

                   Navy. Panel discussions with Navy personnel in the European and Pacific
           theaters revealed that Navy DMS users experienced problems with message
           delivery. For example, an official at a transportation office in Europe and a Fleet
           Industrial Support Center official in the Pacific theater stated that DMS messages
           were not always delivered to their customers. As a result, they used the Secret
           Internet Protocol Router Network (SIPRNET)8 to meet part of their messaging
           needs. Personnel from the Naval Pacific Meteorology and Oceanography
           Facility, which provides weather information to ships and pilots, stated that they
           experienced instances where weather condition messages did not reach the
           facility’s customers.
7
    The Defense Information Systems Network is the worldwide backbone router system for the Defense
    information infrastructure.
8
    The SIPRNET is the Secret portion of the Defense Information Systems Network.



                                                    5
                    Air Force. Air Force personnel in the European and Pacific theaters
            experienced problems with non-delivery notices and message delivery. Panel
            discussions with Air Force DMS users in the European theater identified that the
            Air Force Air Mobility Operations Control Center (the Control Center), located at
            Ramstein Air Force Base, Germany, could not routinely determine from non-
            delivery notices which recipient had not received a message, or how to correct the
            problem. An official in the Control Center stated that about one-third of the DMS
            messages sent did not reach their destinations. The Control Center is responsible
            for planning, scheduling, tasking, and executing theater air mobility. When
            executing Joint missions, it is imperative that Control Center messages reach their
            intended destinations in a timely manner. Panel discussions with DMS users in
            the Pacific theater identified that the Pacific Operations Support Command (the
            Support Command), located at Hickam Air Force Base, Hawaii, also experienced
            problems with high-importance DMS messages not reaching their destinations.
            The Support Command is responsible for command and control of the nine air
            wings within the Pacific theater and must have assured means of communications.
            Some of the non-delivery notices the Support Command received were for
            messages sent to airfields; however, the non-delivery notices did not provide an
            explanation as to why the messages did not go through. Many of those locations
            were not DMS-capable and required that the messages be transmitted by
            AUTODIN or secure fax. The Support Command allocated additional time to
            complete followup calls to all locations to determine which locations received the
            messages, and then find an alternative way to transmit to those that had not
            received the messages.

            Overall, to ensure that messages would be delivered to intended recipients, DMS
            Release 2.2 users relied on other means, including AUTODIN, non-DMS e-mail,
            facsimile transmissions, the Global Command and Control System,9 the Joint
            Operation Planning and Execution System,10 the Non-Secure Internet Protocol
            Router Network (NIPRNET),11 and the SIPRNET.

            Directory. DMS Release 2.2 users in both the European and Pacific theaters
            found that navigating the directory system was a time-consuming and daunting
            task. The directory system within DMS stores recipients’ addresses,
            security-related information, and information necessary to provide organizational
            and individual messaging on a global basis. The DMS directory system stores
            information in a distributed, hierarchical structure known as the Directory
            Information Tree. The Directory Information Tree structure was not standardized
            among and within the Services, making it extremely difficult to navigate making
            tasks such as finding DMS addresses time consuming. The absence of a
            standardized structure for information in the DMS directory required users to be
            familiar with the naming convention used by each organization to establish its
            directory in order to find addresses in a timely manner. Master Key Plus, a DMS
            tool used to find DMS organizational addresses and store those addresses in user
            contact lists, was available for DMS Release 2.2; however, the user had to

9
    The DoD computerized system of record for strategic command and control functions.
10
      An integrated, joint conventional command and control system used by senior-level decision makers and
     their staffs to plan and conduct joint military operations.
11
     The NIPRNET is the non-secure, common-user portion of the Defense Information Systems Network.



                                                      6
           download Master Key Plus software. Master Key Plus is included in DMS
           Release 3.0 and should meet user needs.

           JITC Assessments of DMS. According to the results of operational tests or
           assessments conducted by JITC, DMS Release 2.2 did not fully meet four of the
           12 MROC requirements. A complete list of all 12 MROC requirements is listed
           in Appendix C.

                   Confidentiality/Security. A JITC operational assessment showed that
           DMS Release 2.2 was unable to provide the capability to process and protect all
           unclassified, classified, and sensitive messages at their appropriate security levels.
           That capability includes writer-to-reader message confidentiality; support for
           appropriate message security levels and markings; and authentication, access
           management, and access control using approved security mechanisms. However,
           according to another JITC operational assessment, DMS Release 3.0 should
           satisfy the MROC requirement.

                   Message Delivery. A JITC operational assessment showed that DMS
           Release 2.2 was unable to deliver messages to the intended recipients with a high
           degree of certainty. The system was not able to provide traceability from writer
           to reader. However, according to another JITC operational assessment, DMS
           Release 3.0 should satisfy the MROC requirement.

                   Integrity. A JITC operational assessment showed that DMS Release 2.2
           was unable to provide system-level safeguards against accidental, unauthorized,
           or malicious actions that could result in the alteration of security protection
           mechanisms, security classification levels, addressing or routing information, and
           audit information. However, according to another JITC operational assessment,
           DMS Release 3.0 should satisfy the MROC requirement.

                   Availability/Reliability. A JITC operational assessment showed that
           DMS Release 2.2 was unable to provide the appropriate safeguards to protect the
           system from accidental, unauthorized, or hostile actions, resulting in the inability
           to use system services. However, according to another JITC operational
           assessment, DMS Release 3.0 should satisfy the MROC requirement.
           DMS Support of Emergency Action Messages (EAMs). According to DISA
           and the U.S. Strategic Command, located at Offutt Air Force Base, Nebraska,
           DMS cannot support all strategic messaging requirements, such as EAMs.12 The
           inability of DMS to support EAMs was identified as a potential problem in 1997
           when an analysis indicated that DMS could not fully support the dissemination of
           EAMs in accordance with Chairman of the Joint Chiefs of Staff
           Instructions 5119.0113 and 6811.01, “Nuclear Command and Control System

12
      Previously reported in the Office of the Inspector General of the Department of Defense Report
     No. 98-150, “Readiness of the Defense Message System to Replace the Automatic Digital Network,”
     June 11, 1998.
13
  Chairman of the Joint Chiefs of Staff Instruction 5119.01, dated December 5, 1994, was canceled June 9,
 2000, and replaced by Chairman of the Joint Chiefs of Staff Instruction 5119.0 1A, “Charter for the
 Centralized Direction, Management, Operation, and Technical Support of the Nuclear Command,
 Control, and Communication System,” June 9, 2000.



                                                     7
    Technical Performance Criteria,” January 10, 1994. In September 1997, the Joint
    Staff acknowledged that DMS would not fully support the requirement to
    disseminate EAMs formerly satisfied by AUTODIN.

    Extensive efforts to address the issue culminated in the development of an interim
    plan to use the DMS Transition Hubs until another solution was determined. The
    1999 Defense Planning Guidance directed the Joint Staff to lead a Nuclear
    Command, Control, and Communications Integrated Product Team to identify
    requirements; develop a concept of operations; and prototype, implement, and test
    a second interim solution, the hybrid solution, for disseminating EAMs before the
    DMS Transition Hub closure date. The Military Communications-Electronics
    Board (the Board) granted the formal endorsement of the EAM Hybrid Interim
    Solution on November 29, 2000. In June 2001, the Board established an EAM
    Board of Directors to test and monitor the EAM Hybrid Interim Solution’s
    progress and address any unresolved issues. In addition, the EAM Board of
    Directors will monitor the development of a long-term follow-on solution.

    Problem Resolution. The problems DMS users experienced with message
    delivery, non-delivery notices, and the Directory Information Tree were not
    significant. With appropriate guidance, experience, and the issuance of Master
    Key Plus with DMS Release 3.0, those problems should be resolved. DMS
    Release 3.0 should satisfy all of the MROC requirements, including those only
    partly met by DMS Release 2.2. In addition, EAM support was being addressed
    by both short-term and long-term resolutions.

    Limited Use of DMS. DMS implementation did not appear to be a priority at
    most sites visited in the European and Pacific theaters. Site visits revealed that
    some users had not received any formal training on the system, did not understand
    the intent of the system, or why or when to use DMS. At the sites, units had DMS
    installed but personnel had not been trained on it or its application. Overall, not
    only was DMS not widely used, it had also developed a negative reputation due to
    the lack of the system’s original capabilities and a lack of user training and
    education on the system.

    Resolution of User Concerns. According to the results of a JITC assessment, the
    message delivery and the directory problems encountered by DMS users in the
    European and Pacific theaters should be resolved when DMS Release 3.0 is put
    into use in April 2003. Once DMS Release 3.0 is put into use and allowed to
    operate for a reasonable amount of time, users should be surveyed to determine
    whether DMS Release 3.0 meets all user and MROC requirements. If required, a
    working group should be established to develop a solution to satisfy user
    requirements.


DMS Fielding and Program Oversight
    DMS Release 2.2 did not meet user needs and was not widely used because DMS
    was fielded incrementally and OASD(C3I) and the Joint Staff did not provide
    adequate guidance or oversight of the DMS Program.



                                         8
Incremental Fielding. DoD users encountered problems because DMS was
fielded before it was mature enough to fully support user needs. DMS
Releases 1.0 and 2.1, although tested before fielding, lacked the capability to
support most units’ basic missions; therefore, the combatant commands and the
Services did not mandate that subordinate units use DMS. As a result, the
implementation of the system may have been adversely affected by incrementally
fielding DMS.

Adequacy of Guidance and Oversight. OASD(C3I) did not provide adequate
guidance and oversight for the implementation and usage of DMS. DMS was not
widely used among operational units in the European and Pacific theaters because
of incremental implementation; poor measurement criteria; and insufficient
command emphasis requiring use of DMS once fielded. The Joint Staff needs to
ensure that the Services provide sufficient command emphasis on the DMS
Program.

       Incremental Implementation. The DMS Product Plan (Version 3.03),
dated August 20, 1999, envisioned an organizational messaging transition from
AUTODIN to DMS by the end of December 1999. However, DMS site
implementation problems prevented that goal from coming to fruition. A
December 28, 1999, memorandum from OASD(C3I) stated, “operational issues
warrant a re-look at the overall AUTODIN to DMS transition plan.” The
memorandum goes on to state:
          It’s now clear some of the CINCs [commanders in chief, now referred
          to as combatant commanders], Services, and DoD Agencies are unable
          to meet [the established] deadline. While many DMS organizational
          accounts should be functional by December 1999, DMS integration
          into operational business practices will not be sufficiently mature to
          replace AUTODIN for organizational messaging.

Site implementation processes continued to be a problem for later DMS releases.
A July 1, 2002, memorandum from OASD(C3I) states:
          Site implementation processes and procedures, including training, were
          identified in the OT [operational test] as needing improvement. DISA,
          in coordination with the Services, shall re-examine the OT results to
          identify common site implementation problems and determine if
          adjustment to the DMS site implementation guidance is required.

As cited above, OASD(C3I) recognized that improvements to the site
implementation guidance were required. We believe OASD(C3I) should monitor
DMS site implementation processes and procedures to ensure that DMS is
implemented in the combatant commands and Services in the most efficient and
effective manner.

        Measurement of DMS Usage. On December 28, 1999, OASD(C3I)
issued a revised transition plan. The plan focused on increasing DMS use by
monitoring the transition progress in a DISA monthly report. The revised
transition plan also established a deadline of September 15, 2000, for all
organizational accounts of combatant commands, Services, and Defense agencies
to be operational (no longer sending AUTODIN messages) and all of the general


                                       9
            service message traffic to be transitioned to DMS. However, the measurement
            criteria used in the plan was not quantifiable enough to determine whether the
            users were fully using the system’s capabilities to support their mission
            requirements.

                            Operational Versus Functional Use of DMS. The revised
            transition plan established the terms “Functional” and “Operational”14 to
            distinguish whether units had completed the transition from AUTODIN to DMS.
            However, use of those terms did not mean a unit actually used DMS. Units could
            have DMS capability (functional) and stop using AUTODIN (operational)
            without using DMS to meet their messaging needs by using other systems instead
            of DMS. For example, users in both the European and Pacific theaters stated their
            units were DMS functional and operational even though they only used DMS to
            send test messages. Other units in the Pacific theater reported being DMS
            functional and operational even though personnel in those units did not know
            which computer contained the DMS software. Personnel at those units stated that
            the majority of their message traffic was sent using other systems, such as non-
            DMS e-mail, facsimile transmissions, the Global Command and Control System,
            the Joint Operation Planning and Execution System, NIPRNET, and SIPRNET.
            OASD(C3I) and Joint Staff guidance should have mandated DMS usage after
            implementation.

                            Revised Measurement of DMS Usage. On April 12, 2001,
            OASD(C3I) issued another revision to the transition plan that established new
            milestones, modified the definition of operational, and provided additional clarity
            regarding the applicability of DMS15 and the use of non-DMS means to support
            organizational messaging. The guidance also stated that non-DMS means of
            supporting organizational messaging would only be considered for approval if
            DMS could not support validated user requirements. However, the revised
            transition plan did not establish a method to verify the usage of DMS in an
            operational environment. We believe that OASD(C3I) should direct that each site
            conduct a message traffic analysis to determine whether key organizational
            messages, such as those related to budgeting, command position, and troop
            movement, were sent on DMS.

                    Command Emphasis. The Joint Staff did not provide adequate guidance
            and oversight to ensure that the Services provided command emphasis on the
            DMS Program. A Joint Staff official recognized that additional emphasis was
            required from the Joint Staff and the Services to get the system fully operational.
            Despite having already missed two DoD-mandated deadlines, several units in the
            European and Pacific theaters were not prepared to fully transition to DMS. The
            Army Chief Information Officer stated in a May 31, 2002, message to Army users
            that there was concern that the transition from AUTODIN to DMS was again not
            occurring at a rate to “meet AUTODIN closure.” He stated that the Army
            program manager for DMS needed commanders’ help and assistance to ensure
            that Army commands were ready to meet the DoD deadline. In order to provide
14
 Functional was defined as when a unit had the ability to send and receive signed and encrypted DMS
 messages. Operational was defined as when a unit was no longer sending AUTODIN messages.
15
      Under the modified definition of “operational,” an account was operational when all of the
     organization’s messages were released from, and received at its DMS organizational account.



                                                      10
    emphasis on DMS, the Chief Information Officer established an Army deadline
    for Army-wide organizational messaging to be fully transitioned to DMS by
    March 1, 2003. As of March 5, 2003, that deadline had not been met.

    The Air Force experienced similar problems. Despite monthly reports from the
    European and Pacific theaters that more than 95 percent of all organizational
    accounts were both operational and functional, Air Force units we visited in those
    theaters did not use DMS for all of their messaging needs and users had limited
    knowledge of the intent of the system. We believe that increased command
    emphasis by the Joint Staff and the Services on the benefits of DMS would have
    allowed users to understand the system better and the users would, in turn, have
    used DMS more.


Impact on DMS Use
    Although DMS Release 3.0 should satisfy all MROC requirements, it may not be
    able to replace the critical AUTODIN emergency action messaging capability by
    September 30, 2003, the closure of the DMS Transition Hubs. DoD has expended
    more than 13 years of effort and spent about $9 billion in total program costs on
    DMS and legacy systems. In addition, DoD will not be able to realize the initial
    planned savings of $453 million. Instead, it will incur a negative return on
    investment of at least $266 million for general service messaging capabilities over
    the life of the DMS Program through FY 2013. Lastly, according to a DISA
    official, the DMS Program plans additional expenditures of almost $5 billion.
    The planned expenditures consist of investment costs, operations and support
    costs, and legacy phase-out costs through FY 2013.


Recommendations
    A.1. We recommend that the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence):
           a. Resolve user problems with message delivery, non-delivery notices,
    and the Directory Information Tree.

           b. Allow Defense Message System Release 3.0 to operate for a reasonable
    amount of time after the closure of the Defense Message System Transition Hubs
    on September 30, 2003, to validate whether the Defense Message System can
    meet all Multicommand Required Operational Capability and user requirements.

            c. If the Defense Message System does not meet user requirements,
    conduct a survey to identify messaging requirements that are not being met and
    establish a working group to develop a solution to satisfy user requirements.

          d. Direct that each site conduct a message traffic analysis to determine
    whether key organizational messages, such as those related to budgeting,
    command position, and troop movement, are being sent on DMS.


                                        11
    A.2. We recommend that the Director, Joint Staff issue policy and guidance
    requiring the combatant commands, the Services, and the DoD agencies to:

          a. Conduct a message traffic analysis to determine how the Defense
    Message System can best support organizational messaging needs.

          b. Use the Defense Message System to satisfy those organizational
    messaging needs identified in Recommendation A.2.a. after its implementation.

           c. Ensure that the Services provide command emphasis on the Defense
    Message System Program, to include explaining the intent and nature of
    operations of the system and educating users on the benefits of the system.


Management Comments Required
    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) did not provide comments and comments from the Director, Joint
    Staff were received too late to be considered in preparing the final report.
    Therefore, we request that the Assistant Secretary of Defense provide comments
    in response to the final report. If the Director, Joint Staff does not submit
    additional comments, we will consider the comments received as the response to
    the final report.




                                       12
            B. Intelligence Community Directory
               Security
            DMS Release 3.0 does not satisfy IC requirements for directory security
            because DISA was not able to develop a directory architecture that met
            critical IC directory security requirements. As a result, the IC may not
            have a secure permanent messaging system available to meet its
            requirements by September 30, 2003.


Criteria
     IC Requirements. The overall IC DMS requirements were first published in
     “Intelligence Community Defense Message (DMS) Requirements, Version 1.1,”
     April 29, 1998. In addition, a list of IC Priority 1 requirements were published in
     the “Intelligence Community (IC) Requirements & Analysis Report” (the
     Analysis Report), July 15, 1998, and later in the “DMS Release 3.0 IC Priority 1
     Requirements Implementation Matrix,” January 7, 2000. Priority 1 requirements
     are those designated by the IC as most critical, including directory security
     requirements, which must be met before the IC will implement DMS.

     Director of Central Intelligence Directive (DCID). DCID 6/3, “Protecting of
     Sensitive Compartmented Information within Information Systems,” June 5,
     1999, sets out the security policies and requirements for information systems in
     the IC. DMS directory security must comply with the provisions of DCID 6/3 in
     order to successfully satisfy IC requirements. On June 26, 2002, OASD(C3I)
     determined that DCID 6/3 should be used as the standard to ensure IC DMS
     directory security requirements are met.

     According to the Directory Security Functional Content Document (FCD), “DMS
     Release 3.0 Directory Security: Consolidated General Service/IC DMS Directory
     Security Requirements (DCID 6/3 extract),” October 25, 2002, the DMS
     Release 3.0 directory does not meet 10 of the DCID 6/3 requirements regarding
     directory security. The DISA DMS Program Management Office and Lockheed
     Martin Corporation prepared the FCD to document the problems with directory
     security. Table 1 lists the 10 unmet DCID 6/3 requirements identified by the
     FCD.




                                         13
            Table 1. Unmet DCID 6/3 Directory Security Requirements
         DCID 6/3
        Requirement                                    Description

    1   4.B.2.a(2)         Access control, including a discretionary access control policy.
    2   4.B.2.a(4)(d)(3)   Activities at the system console (either physical or logistical consoles),
                           and other system-level accesses by privileged users.
    3   4.B.2.a(8)         Identification and Authentication.
    4   4.B.4.a(13)        Identification and Authentication.
    5   4.B.4.a(14)(a)     Implementation and support of a trusted communications path between
                           the user and the Security Support Structure of the desktop for login and
                           authentication.
    6   4.B.4.a(14)(b)     In the case of communication between two or more systems (e.g. client-
                           server architecture), bi-directional authentication between the two
                           systems.
    7   4.B.2.a(17)(d)5    Information encrypted using NSA-approved encryption mechanisms
                           appropriate for the classification of stored data.
    8   5.B.3.a(7)         Data and software storage integrity protection, including the use of
                           strong integrity mechanisms (e.g. integrity locks, encryption).
    9   5.B.3.a(11)(a)     Integrity mechanisms adequate to assure the integrity of all transmitted
                           information (including labels and security parameters).
    10 5.B.3.a(11)(b)      Mechanisms to detect or prevent the hijacking of a communication
                           session (e.g. encrypted communication channels).
     Source: FCD

     The overall IC requirements and the list of Priority 1 requirements are broadly
     defined principles that DMS will be required to meet. DCID 6/3 provides the
     road map of detailed security steps to follow to ensure the DMS directory satisfies
     the overall IC requirements.


Directory Security
     DMS Release 3.0, the first release to be considered for implementation in the IC,
     does not satisfy IC requirements for directory security. If directory security
     requirements, which are Priority 1 requirements, are not met, the IC will not
     implement DMS. Since the IC requirements were first established in 1998, DISA
     has considered different solutions to satisfy directory security requirements. As
     of November 18, 2002, directory security was the biggest unresolved issue facing
     DMS.

     The architecture of the DMS directory of user addresses consists of individual,
     local directories (Directory System Agents [DSAs]) that contain part of the
     X.500 directory. X.500 is an international specification established for directory
     services that defines the mechanisms to support geographically dispersed
     directories (distributed environments) and to control access to the information
     stored in the directories.


                                              14
           OASD(C3I) Memorandum. According to the OASD(C3I) memorandum, “DMS
           Directory Security Requirements,” June 26, 2002, effective directory security
           requires four elements:

                    •    integrity of the directory,

                    •    strong identification and authentication of changes to the directory,

                    •    integrity of directory data, and

                    •    an ability to provide a comprehensive audit of directory changes.

           The memorandum states that the DISA Virtual Private Network (VPN) solution to
           directory security, which was in effect at the time of the memorandum, was
           inadequate. Specifically, under the VPN solution, boundaries were not well
           protected and identification and authentication within the VPN was weak (for
           example, passwords used in DMS were inadequately protected).

           Directory Security Functional Content Document. The FCD sets out the
           shortfalls in the directory architecture of DMS Release 3.0, which features the
           VPN solution. The FCD also describes the enhancements to be made as part of a
           phased solution to ensure the DMS directory meets DCID 6/3 requirements.

           The DMS directory architecture consists of X.500 DSAs located in a DISA-
           operated infrastructure as well as in locally operated Service and Defense agency
           sites. The FCD states that because the directory architecture is widely dispersed,
           data is transmitted between DSAs. Data transmissions include writes16 and
           reads17 of data between DSAs. In addition, other components, such as DMS
           messaging clients and tools, connect to DSAs to send or retrieve data.

           Despite the fact that DSAs and components are protected by firewalls and there is
           a global VPN that protects many of the transmissions between DSAs, the FCD
           notes that much of the directory data is transmitted over unprotected network
           links, both internal and external. Thus, states the FCD, directory data
           transmissions are unprotected for significant portions of their travel across the
           DMS directory architecture.

           According to the FCD, DMS Release 3.0, which includes the VPN solution, does
           not address concerns about the integrity of the directory. It is not possible to
           update the DMS directory data or configuration without authorization (gained
           through inputting an identification and password); however, anyone with access
           to the network (an internal user) can potentially intercept that information in
           transit. If the intercepted data includes an administrator’s identification and
           password combination, the interceptor could potentially gain access to the
           authorizations held by that administrator. In order to prevent the risk of
           interception, the FCD states that all transmissions of directory data must be
           encrypted.

16
     Directory modifications by authorized system administrators.
17
     Users accessing or reading directory data.



                                                      15
            The FCD notes that as long as identifications and passwords are the means of
            authentication, the DMS directory is vulnerable to unauthorized access if an
            identification and password are guessed correctly. According to the FCD, the
            DISA phased solution to address IC DMS directory security requirements will use
            certificates and a public key infrastructure to authenticate users. That design
            requires that an imposter gain access to a user’s certificate, the user’s private key,
            and the personal identification number used to access the private key in order to
            impersonate that user. Gaining access to all three of those components is much
            more difficult than simply guessing a user’s identification and password.


Development of the DMS Directory
            DISA was unable to develop a DMS directory architecture that met critical IC
            directory security requirements. The DISA DMS Program Management Office is
            responsible for developing a solution that satisfies the IC directory security
            requirements.

            The IC requirements for directory security have been well known for several
            years. The IC released its official DMS requirements, which included directory
            security requirements, on April 29, 1998. In addition, the IC designated directory
            security requirements as critical items in its July 15, 1998, and January 7, 2000,
            DMS Release 3.0 Priority 1 requirements documents. IC DMS Management
            Office officials stated that they continually reminded the DISA DMS Program
            Management Office about the criticality of developing an effective solution to the
            directory security problems. In an effort to address the IC directory security
            requirements, DISA developed different solutions over the years, including a
            solution based on FORTEZZA,18 a VPN solution, and a phased solution.

            FORTEZZA-Based Solution. In the 1999 through 2001 timeframe, the DISA
            DMS Program Management Office considered a FORTEZZA-based solution to
            meet the IC directory security requirements. According to DISA, the
            FORTEZZA-based solution never made it past the prototype stage because of
            development concerns, schedule concerns, and cost. A DISA DMS Program
            Management Office official indicated that the solution was never formally
            proposed to the IC.

            VPN Solution. The DISA DMS Program Management Office decided in early
            2001 to extend a planned VPN implementation to also protect the DMS directory,
            in place of the FORTEZZA-based solution. The VPN solution was the second
            solution considered to address IC directory requirements, but it was the first
            proposed to the IC (in early 2002). However, the Defense Intelligence
            Communication Accreditation Support Team19 and the IC did not view the VPN
            solution as acceptable. During the DMS 3.0 Milestone III decision review

18
      FORTEZZA is a product of the National Security Agency Multi-Level Information System Security
     Initiative program.
19
      The Defense Intelligence Communication Accreditation Support Team is responsible for analyzing
     security issues.



                                                     16
           process, the Defense Intelligence Communication Accreditation Support Team
           rejected the VPN solution.

           The FCD includes the following major DMS directory security exposures that
           exist under the DMS Release 3.0 directory architecture, which features the VPN
           solution:
                   • transmittal of directory modify requests over unprotected links,

                    •    transmittal of directory data over unprotected links as part of a
                         replication operation,

                    •    vulnerability of a user’s identification and password combination to
                         guessing or interception on unprotected links, and

                    •    transmittal of directory data over unprotected links as a result of a read
                         request.

           On June 20, 2002, after the VPN solution had been rejected, the Command,
           Control, Communications, Computers, Intelligence, Surveillance, and
           Reconnaissance & Space Systems OIPT tasked the Information Assurance Branch
           of OASD(C3I) with identifying and clarifying the DoD and IC requirements that
           would be used to develop a new solution to satisfy IC directory security concerns.
           The June 26, 2002, OASD(C3I) memorandum established DCID 6/3 as the basis
           for developing a solution to the directory security problems for both DoD and the
           IC. The FCD notes that the DISA DMS Program Management Office was to
           provide a plan of action to develop, test, and implement the directory security
           requirements established by the OASD(C3I) memorandum.

           Phased Solution. On September 19, 2002, DISA presented the Defense
           Intelligence Communication Accreditation Support Team with a phased solution
           to the directory security requirements. The team agreed with the approach and
           the planned schedule. In a memorandum to OASD(C3I), “DMS Directory
           Security Requirements,” November 1, 2002, DISA provided an overview of its
           plan to complete the directory security enhancements.

           Phase one of the phased solution will focus on directory security enhancements
           critical to achieving DMS Transition Hub closure. According to the DISA
           memorandum, phase one will include directory write operations, protection of
           remote directory administration operations, and protection of directory security
           integrity. In the second phase, DISA plans to address strong authentication for
           directory read operations and encryption of the directory. According to a DISA
           DMS Program Management Office official, both phases of the solution would
           employ Secure Sockets Layer20 tunnels with bi-directional authentication using
           DoD or IC public key infrastructure certificates. Directory data in transmission
           would be encrypted and before the directory could be modified or read,
           authentication would be required.



20
     Secure Sockets Layer technology is used by digital certificates to encrypt data.



                                                       17
Planned Actions
            In order to implement DMS in the IC by the DMS Transition Hub closure date of
            September 30, 2003, the following actions will need to have been completed:
                   • development, testing, and fielding of phase one of the DISA phased
                        directory security solution;
                     •   modification and testing of existing DMS components affected by the
                         planned changes to the directory;
                     •   testing of the overall DMS architecture for all IC agencies; and
                     •   approval by the Director of Central Intelligence to implement DMS.
            DISA plans to have the phase one solution tested and implemented by the DMS
            Transition Hub closure date. The directory security shortfalls addressed by phase
            one are functions that are deemed critical to achieving that closure. As of
            February 7, 2003, phase one development was ongoing. Phase two, which will
            complete the directory security enhancements, is projected by DISA to be
            completed in 2004.

            IC officials indicated that the overall IC DMS architecture would undergo a
            developmental test phase and an operational test and evaluation in the spring of
            2003, followed by three additional test phases (including tests of functionality,
            security, and vulnerability) in June 2003. When the tests are completed, the IC
            Chief Information Officer will prepare a report summarizing their results. The
            report will then be presented to the Director of Central Intelligence for review and
            approval of the entire IC DMS architecture (the core DMS Release 3.0 software
            product and any supplementary products).


Conclusion
            The IC may not have a secure permanent messaging system available to meet its
            requirements by September 30, 2003. Therefore, IC agencies will have to rely on
            legacy and existing systems, such as the Joint Worldwide Intelligence
            Communications System, the IC Bypass,21 and other forms of secure e-mail, to
            provide messaging services.

            Because DISA had not developed a DMS directory architecture that satisfied IC
            directory security requirements, a phased solution had to be developed and must
            be tested and implemented with little room for error prior to the September 30,
            2003, deadline. If there are any delays in the schedule, the IC may not be ready to
            implement DMS. However, DISA and the IC have agreed on the solution to
            address the directory security requirements; therefore, this report makes no
            recommendations.

21
     The IC Bypass architecture is composed of legacy switches that provide bi-directional organizational
     messaging between DMS and legacy users. It is scheduled for closure in September 2004.



                                                      18
Appendix A. Scope and Methodology
   We performed this audit to determine whether DMS can replace the critical
   messaging capabilities of AUTODIN.

   To accomplish the audit objective, we:

          •   visited, contacted, and conducted interviews with officials from
              OASD(C3I); the Office of the Director, Program Analysis and
              Evaluation; the Office of the Joint Chiefs of Staff; the Services’ DMS
              Program offices; selected unified commands (the U.S. Pacific
              Command, the U.S. European Command, the U.S. Transportation
              Command, and the U.S. Strategic Command); selected subordinate
              unified commands (U.S. Forces Japan and U.S. Forces Korea); the Air
              Force Communications Agency; DISA; and the DISA DMS Program
              Management Office;

          •   visited, contacted, and conducted interviews with officials from the IC,
              including the IC Chief Information Officer, the IC DMS Management
              Office, the Defense Intelligence Communication Accreditation
              Support Team, the Central Intelligence Agency, the National Security
              Agency, the Defense Intelligence Agency, the National
              Reconnaissance Office, the National Imagery and Mapping Agency,
              and various intelligence field offices; and

          •   reviewed various reports for the DMS Program that included cost,
              schedule, and performance parameters covering FY 1990 through
              FY 2013.

   We interviewed officials within OASD(C3I) and the Office of the Joint Chiefs of
   Staff concerning their respective roles in the oversight of the DMS Program. We
   interviewed personnel from the DISA DMS Program Management Office, Service
   DMS program offices (Army, Navy, Air Force, and Marine Corps), and unified
   command DMS program offices (U.S. Pacific Command, U.S. European
   Command, U.S. Transportation Command, and U.S. Strategic Command) to
   determine their respective DMS fielding status. During visits to the unified
   commands, subordinate unified commands, and DISA, we interviewed personnel
   responsible for operating DMS to determine whether DMS was fulfilling the
   users’ requirements. We also interviewed officials within DISA to determine the
   current development and implementation status of DMS.

   We reviewed documentation provided by the Services’ DMS program offices to
   evaluate the Services’ DMS fielding status and transition plans. We reviewed the
   DoD Acquisition Regulations (5000 Series) and the OASD(C3I) memorandum,
   “Policy Guidance for the Defense Message System,” February 19, 1998, to
   determine roles and responsibilities for the DMS Program. In addition, we
   reviewed “Change 2 to Multicommand Required Operational Capability,”
   October 1, 1997, to determine the specific capabilities required of DMS.




                                       19
    We reviewed and analyzed documentation provided by DISA, including JITC test
    results (January 2001 and January 2002), the DMS acquisition program baseline
    (June 2002), life-cycle cost estimate (July 2002), analysis of alternatives (June 14,
    2002), DMS business process reengineering assessment (June 14, 2002), and
    benefits analysis (June 24, 2002). We also reviewed documentation provided by
    the IC, such as “Intelligence Community (IC) Requirements & Analysis Report,”
    July 15, 1998, and “DMS Release 3.0 IC Priority 1 Requirements Implementation
    Matrix,” January 7, 2000, provided by the IC, which lists the most critical
    requirements of the IC. We reviewed documentation from each IC agency to
    determine whether a stable DMS architecture was in place. We analyzed
    documentation provided by DISA and the IC regarding the development of the
    DMS directory, including the OASD(C3I) memorandum, “DMS Directory
    Security Requirements,” June 26, 2002, and the FCD.

    We performed this audit from April 2002 through March 2003 in accordance with
    generally accepted government auditing standards. Our scope was limited in that
    we did not include tests of management controls.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Systems Modernization high-risk area.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued one report discussing the transition from AUTODIN to
    DMS. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. 98-150, “Readiness of the Defense Message System to
    Replace the Automatic Digital Network,” June 11, 1998




                                         20
               DRAFT REPORT



Appendix B. Congressional Request




                     21
Appendix C. DMS Multicommand Required
            Operational Capability
            Requirements
   1. Connectivity/Interoperability: Allow user to communicate with any other user
   within the DMS community and provide system users with standard interfaces to
   other Government agencies, allies, Defense contractors, and other approved
   activities external to the DMS community.
   2. Message Delivery: System must deliver messages to the intended recipient(s)
   with a high degree of certainty. System must notify the sender when unable to
   deliver a message and provide message accountability and traceability from writer
   to reader.
   3. Timely Delivery: System must provide at least two levels of precedence and
   transmission priorities and at least two levels of importance indicators. System
   must provide support for changing traffic loads and conditions in time of peace,
   crisis, and war, such that all messaging characteristics continue to be achieved.
   4. Confidentiality/Security: System is to provide the capability to process and
   protect all message traffic, to include unclassified, classified, and sensitive
   messages at appropriate security levels and compartments.
   5. Sender Authentication: System must have the capability to unambiguously
   verify and prove that information marked as originating at a given source did, in
   fact, originate there.
   6. Integrity: Information received must be the same as the information sent and
   the system must provide the user with a selectable verification mechanism.
   7. Availability/Reliability: System must provide users with a message service on
   a continuous basis.
   8. Training: System must be flexible and responsive enough to allow the user to
   operate DMS without extensive training.
   9. Identification of Recipients: System must allow sender to unambiguously
   identify the intended recipient by organization or individual.
   10. Message Preparation Support: Preparation of messages for transmission must
   be user-friendly and allow the use of external message editors.
   11. Storage and Retrieval Support: System must have the capability to support
   storing messages after delivery to allow retrieval for such purposes as forwarding
   and resending and to support automated message handling functions.
   12. Distributions, Determination, and Delivery: System must provide the
   message originator with the capability to specify special handling and delivery
   instructions. It also must support single and multiple deliveries, as well as single
   address lists that result in multiple deliveries.


                                        22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
   Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander, U.S. Northern Command
Commander, U.S. Southern Command
Commander, U.S. Joint Forces Command
Commander, U.S. Pacific Command
  Commander, U.S. Forces Japan
  Commander, U.S. Forces Korea
Commander, U.S. European Command
Commander, U.S. Central Command
Commander, U.S. Transportation Command
Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command




                                          23
Other Defense Organizations
Director, Defense Information Systems Agency
Director, Defense Intelligence Agency
Director, National Imagery and Mapping Agency
Director, National Reconnaissance Office
Director, National Security Agency

Non-Defense Federal Organizations
Office of Management and Budget
Director, Central Intelligence Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Military Readiness, Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        24
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Donald A. Bloomer
Lieutenant Colonel Shannon Jones, U.S. Army
Vanessa Springfield
Suk Y. Webb
Keith M. Owens
Velma E. White
Gary L. Queen
Michael J. Roark
Deirdre Beal
April L. Glasscock
Joshua H. Hickman
Robert E. L. Smith
Mandie L. Marr
Elizabeth N. Shifflett
